2005
Performance
Report
Social Security Administration

Office of the Inspector General
                   Table of Contents



Executive Summary…………………………………………………                 1

Performance Results……………………………………….………..             2

Performance Discussion and Analysis ……………………….……..   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Quality ……………………………………………….             4

    Goal 3 – Timeliness …………………………………………… 5

    Goal 4 – Value ………………………………………………… 7

    Goal 5 – People ………………………………………………... 8
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES



     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY



On March 31, 2005, the Office of the Inspector General (OIG) marked its 10th year
anniversary. Throughout these 10 years, we remained committed to putting into place an
organization that excels in protecting the integrity of Social Security programs while
remaining accountable to the American people. This Performance Report demonstrates
our organization’s commitment to these values. Accomplishments during the final year
of our Fiscal Year (FY) 2003 through 2005 Strategic Plan, focused on five general areas:
the Impact we have on improving Social Security’s programs and operations; the Quality
of OIG products and services; the Timeliness by which we deliver those products and
services; the Value we bring to Social Security and the citizens we serve; and the People
who make our office successful–our employees. Our success is measured by targets
established under 15 individual measures. For FY 2005, we successfully met the targets
for 13 of the 15 performance measures (1 measure was eliminated in FY 2005).

The results in this report demonstrate that our efforts have had a significant impact on
Social Security programs and operations. The quality of our products remains judicious
and timely. The work we do continues to demonstrate our value to the American
taxpayer. For every $1 invested in our organization, we return $9 through audits,
investigations, and legal proceedings. Furthermore, this report also emphasizes the
strength of our commitment to our workforce by offering our employees occupational
challenges, career potential and development opportunities while improving our
workforce diversity.

Finally, during this past year, we convened a workgroup of representatives from each of
our components to develop our new 5-year Strategic Plan. The workgroup was charged
with reviewing our existing goals, strategies and performance measures as well as
looking at new ways to measure our impact. The new FY 2006-2010 Strategic Plan will
only expound upon our current successes.




November 2005              SSA OIG FY 2005 Performance Report                      Page 1
                                     PERFORMANCE RESULTS


                                                                                               GOALS
GOAL                     DESCRIPTION                              TARGET RESULT
                                                                                        MET      NOT MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                             85%          95%        X
       85 percent for all recommendations through FY 2005.
       Through FY 2005, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                             85%          90%        X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
                                                  QUALITY
       Achieve a positive internal and external user
 2.1   assessment rating of 80 percent for                       80%          94%        X
       product-service quality.
                                               TIMELINESS
       Evaluate and respond to all allegations received within
 3.1                                                            30 Days      23 Days     X
       30 days through FY 2005.
       Complete investigative fieldwork for 80 percent of
 3.2                                                             80%          66%                     X
       cases within 180 days through FY 2005.
       Respond to congressional requests within an average
 3.3                                                            30 Days      14 Days     X
       of 30 days through FY 2005.
       By 2005, take action on 80 percent of Civil Monetary
 3.4                                                             80%          90%        X
       Penalty (CMP) subjects within 30 days of receipt.
       Issue 70 percent of final audit reports within 1 year of
 3.5                                                             70%          78%        X
       the entrance conference with SSA.
       Issue 95 percent of OIG products in time to meet the
 3.6                                                               95%        95%        X
       needs of Congress, SSA and other key decision makers.
                                                  VALUE
 4.1   Generate an annual positive return on investment.          Positive   $9 to $1    X
       Increase the number of total judicial outcomes by at
 4.2                                                               30%        38%        X
       least 30 percent by FY 2005.
                                                 PEOP LE
       By FY 2005, achieve an 80 percent retention rate for
 5.1                                                               80%        82%        X
       newly hired employees.
                                                                                                   Measure
       By 2005, achieve an 80 percent positive organizational
 5.2                                                               80%         ---       ---      Eliminated
       health assessment rate.                                                                    in FY 2005
       Ensure that 90 percent of OIG staff receives at least 40
 5.3                                                               90%        96%        X
       hours annually of appropriate developmental training.
       By FY 2005, improve the overall workforce diversity
 5.4                                                               29.2%      30%        X
       with an emphasis on underrepresented groups.



         November 2005                  SSA OIG FY 2005 Performance Report               Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the five general areas. We
state each goal, its associated results and describe the method of calculation. We also
discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 - IMPACT
        Increase our impact on the integrity, efficiency and effectiveness of SSA
                              programs and operations.

Strategies to attain this goal include:

    1. Establish and communicate an OIG-wide process for cross-component
       communications on potential programmatic and operational vulnerabilities.

    2. Coordinate, receive and assess information about potential programmatic and
       operational vulnerabilities.

    3. Focus OIG efforts on impacting congressional and SSA programmatic and
       operational decisions, including major budgetary decisions.

    4. Reinforce OIG’s role as an agent for positive change using constructive, balanced
       language in presenting viable opportunities for improving SSA programs and
       operations.

              Maintain an annual acceptance rate of at least
                                                                       FY 2005 Result
 Goal 1.1     85 percent for all recommendations through
                                                                         95 Percent
              FY 2005.

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2005, our annual acceptance rate was 95 percent, exceeding our 85 percent goal. Of
the 353 recommendations we submitted during this period that have a management
decision, SSA agreed with 337.




November 2005                  SSA OIG FY 2005 Performance Report                   Page 3
              Through FY 2005, achieve a 5-year average
              implementation rate of 85 percent for accepted           FY 2005 Result
 Goal 1.2
              recommendations aimed at improving the                     90 Percent
              integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2005 we are reporting the 5-year period
covering FYs 2000 through 2004. Our average implementation rate for accepted audit
recommendations was 90 percent, exceeding our 85 percent goal. During this period, SSA
implemented 1,202 of 1,343 recommendations.


 Goal 2 - QUALITY
       Provide OIG products and services of quality and value to Congress, SSA
                          and other key decision makers.

Strategies used to attain this goal include:

   1. Implement a product and service quality assessment instrument.

   2. Develop and implement procedures and a tracking system to review and analyze
      internal and external feedback to maintain a focus on continuous improvement of
      OIG products and services.

   3. Communicate OIG-wide best practices and lessons learned.

              Achieve a positive internal and external user
                                                                     FY 2005 Result
 Goal 2.1     assessment rating of 80 percent for product-
                                                                       94 Percent
              service quality.

This measure is calculated by using a multi-tier rating scale measuring the strength of
agreement with a series of statements about OIG product-service quality. Specifically,
during our Quality Assurance Review (QAR) process, we translate these responses into a
percentage with 80 percent indicating satisfaction.

For FY 2005, we achieved a 94 percent rating.




November 2005                  SSA OIG FY 2005 Performance Report               Page 4
Goal 3 - TIMELINESS
  Ensure OIG products and services are issued in time to meet the needs of Congress,
                 SSA, key decision makers, and other end users.

Strategies used to attain this goal include:

   1. Identify administrative and operational barriers to timely delivery of OIG
      products and services.

   2. Identify and adopt best practices to aid the timeliness of OIG products and
      services.

   3. Identify and use information technology investments to expedite OIG work
      products and service delivery.

   4. Use mid-point or other early warning reports to encourage swift action on
      sensitive and politically controversial issues.

             Evaluate and respond to all allegations                FY 2005 Result
 Goal 3.1
             received within 30 days through FY 2005.                  23 Days

This measure is calculated by dividing the total number of response days for all allegations
during the FY by the total number of allegations closed during the FY. Response days are
the elapsed days from receipt of an allegation to the date it is declined, referred to an
appropriate authority or an investigation is opened.

The average response time for allegations for FY 2005 was 23 days, an improvement over
last year’s average of 26 days.

             Complete investigative fieldwork for
                                                                     FY 2005 Result
 Goal 3.2    80 percent of cases within 180 days through
                                                                       66 Percent
             FY 2005.

This measure is calculated by dividing the total number of investigations closed or referred
for judicial/SSA action during the FY where fieldwork was completed in less than 180 days
by the total investigations closed during the FY.

For FY 2005, we completed investigative fieldwork for 66 percent of all cases within
180 days. While our performance falls short of the target goal of 80 percent, our processing
times have continued to improve in many areas. Future advances in our use of information
technology and other work-process refinements will enable us to reduce the time it takes to
complete investigative fieldwork.



November 2005                  SSA OIG FY 2005 Performance Report                   Page 5
             Respond to congressional requests within                FY 2005 Result
Goal 3.3
             an average of 30 days through FY 2005.                     14 Days

This measure is calculated by dividing the total processing days for all congressional
requests received during the FY by the total number of congressional requests received
during the FY. Processing days are the days elapsed from receipt of a congressional request
to the date of a final response.

For FY 2005, we received 105 congressional requests and our average processing time was
14 days.

             Take Action on 80 percent of CMP subjects               FY 2005 Result
 Goal 3.4
             within 30 days of receipt by FY 2005.                     90 Percent

This measure is calculated by dividing the total number of CMP subjects against whom
action was taken within 30 days of receipt during the FY by the total number of CMP
subjects where action was taken during the FY.

For FY 2005, we have taken action on 90 percent of CMP subjects within 30 days. We
continued to reduce case evaluations and processing times through the innovative use of
technology and work process enhancements.

             Issue 70 percent of final audit reports within          FY 2005 Result
 Goal 3.5
             1 year of the entrance conference with SSA.               78 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2005, we issued 78 percent of our final audit reports within 1 year of the entrance
conference meeting our target goal of 70 percent. The average report took only 292 days
from start to issue which expedites implementation of corrective action.

             Issue 95 percent of OIG products in time to
                                                                     FY 2005 Result
 Goal 3.6    meet the needs of Congress, SSA and other
                                                                       95 Percent
             key decision makers.

This measure is calculated by using a multi-tier rating scale to measure the strength of
agreement with a series of statements about OIG product-service quality to include targeted
measures of timeliness. Specifically, during our QAR process, we translate responses to
questions regarding the timeliness of our products into a percentage with 95 percent
indicating satisfaction. In FY 2005, we achieved our 95 percent target.




November 2005                SSA OIG FY 2005 Performance Report                   Page 6
  Goal 4 - VALUE

    To sustain a positive return-result for each tax dollar invested in OIG activities.


Strategies used to attain this goal include:

   1. Maintain a positive-return culture in OIG.

   2. Provide OIG components with training and tools necessary to ensure that
      analytical methods for determining returns-results are consistent and appropriate.

   3. Prioritize high impact investigations, audits and counsel actions to ensure an
      appropriate focus on more efficient and economic SSA programs and operations.

   4. Maintain an awareness of, and address, both national security and public safety
      issues during the course of detecting and preventing fraud, waste and abuse.

              Generate an annual positive return on                  FY 2005 Result
 Goal 4.1
              investment.                                               $9 to $1

This measure is calculated by dividing the total amount of all OIG loss prevention-related
savings identified during the FY by the total amount of appropriated funds during the same
period.

For FY 2005, we returned $9 for every dollar invested. In FY 2005 our appropriation was
$90.4 million and the total loss prevention-related savings from our audit, investigative and
legal activities were approximately $813 million.


              Increase the number of total judicial                    FY 2005 Result
 Goal 4.2
              outcomes by at least 30 percent by FY 2005.                38 Percent

This measure is calculated by dividing the incremental increase in convictions and other
judicial outcomes (excluding fugitive felon apprehensions) as reported in OIG’s semiannual
reports by the level of judicial outcomes (excluding fugitive felon apprehensions) taken in
the base year of FY 2002.

This goal was originally revised in FY 2004 to exclude the apprehension of fugitive felons
by agencies to which OIG provided information regarding the fugitives’ whereabouts. We
discontinued counting fugitive felon apprehensions by other agencies as a category of
judicial outcomes. We also adjusted the base year to exclude fugitive felons as a defined
judicial outcome. For FY 2005, we processed 2,769 judicial actions from our
investigations, which represents a 38 percent increase over the 2,003 judicial actions
processed in the base year.

November 2005                  SSA OIG FY 2005 Performance Report                  Page 7
  Goal 5 - PEOPLE
        Promote/Ensure a skilled, motivated, diverse workforce in a positive and
                            rewarding work environment.

Strategies used to attain this goal include:

   1. Identify underrepresented professional, technical and managerial skills at
      headquarters and field locations.

   2. Identify assignment interests and developmental needs of all employees.

   3. Prioritize resources to address underrepresented skills, employee interests and
      developmental needs.

   4. Prepare a comprehensive management development program that includes:
      succession planning, desired core competencies and both technical and
      managerial skills for specific targeted positions.

   5. Develop a proactive approach in recruiting and hiring candidates to meet different
      needs.

   6. Pilot test, refine and implement the proposed Organizational Health Assessment
      Instrument.

   7. Be sensitive to and target underrepresented minority groups both internally and
      externally in recruiting, hiring and staff development.

              By FY 2005, achieve an 80 percent retention              FY 2005 Result
 Goal 5.1
              rate for newly hired employees.                            82 Percent

This measure is calculated by dividing the total number of employees still on board that
were hired 5 years ago (as of the end of the current reporting period) by the total number of
employees hired 5 years ago.

For FY 2005, our retention rate for employees hired during FY 2000 was 82 percent.

              By FY 2005, achieve an 80 percent positive               FY 2004 Result
 Goal 5.2
              organizational health assessment rate.                    Not Available

During FY 2005, the Inspector General established an Organizational Health Committee to
focus on employee issues and solutions. This Committee has recommended that the
employee survey process be re-evaluated and requested that we not use the same instrument
that was used in prior years. Therefore, this measure was eliminated in FY 2005.

November 2005                  SSA OIG FY 2005 Performance Report                  Page 8
            Ensure that 90 percent of OIG staff
                                                                  FY 2005 Result
Goal 5.3    receives at least 40 hours annually of
                                                                    96 Percent
            appropriate developmental training.

This measure is calculated by dividing the total number of OIG staff receiving at least
40 hours of developmental training during the FY by the OIG Full-Time Equivalents (FTE)
for the FY.

For FY 2005, 96 percent of OIG staff received at least 40 hours of appropriate
developmental training. This training-hours per FTE demonstrates our commitment to
having a well-trained workforce.

             By FY 2005, improve the overall workforce
                                                                   FY 2005 Result
 Goal 5.4    diversity with an emphasis on under-
                                                                     30 Percent
             represented groups.

This measure is the difference in the OIG workforce profile from the beginning of the FY
compared to the end of the FY. For FY 2005, our workforce diversity profile was
30 percent. This exceeds our FY 2004 performance of 29.5 percent and demonstrates our
commitment to recruit a more diverse workforce.




November 2005               SSA OIG FY 2005 Performance Report                  Page 9
